AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20-1530
X
West Virginia, et al.,
Petitioners,
v.
Environmental Protection Agency, et al.,
Respondents.
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
I, Marianna Iannotta, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Respondents.
That on the 28th day of May, 2021, I served the within Brief of Respondent National
Mining Association in Support of the Petition in the above-captioned matter upon:

Lindsay Sara See
Counsel of Record
Office of the West Virginia Attorney General
1900 Kanawha Blvd E, Bldg 1 Rm 26E
Charleston, WV 25305
304-558-2021
lindsay.s.see@wvago.gov
Attorneys for Petitioner

Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDO.I.gov

Counsel for U.S. Environmental
Protection Agency and Michael Regan,
Administrator of the U.S.
Environmental Protection Agency

David Michael Flannery
Amy M. Smith
STEPTOE & JOHNSON PLLC
P.O. Box 1588
Charleston, WV 25326
(304) 353-8000
dave.flannery@steptoe-johnson.com
Amy.Smith@steptoe-johnson.com
Counsel for AEP Generating Company,
AEP Generation Resources Inc.,
Appalachian Power Company, Indiana
Michigan Power Company, Kentucky
Power Company, Public Service
Company of Oklahoma, Southwestern
Electric Power Company, Wheeling
Power Company, Indiana Energy
Association, and Indiana Utility Group

Elbert Lin
F. William Brownell
HUNTON ANDREWS KURTH LLP
Riverfront Plaza, East Tower
951 East Byrd Street
Richmond, VA 23219
(804) 788-7202
ELin@hunton.com
bbrownell@HuntonAK.com
Counsel for America's Power

John David Lazzaretti
John A. Rego
SQUIRE PATTON BOGGS (US) LLP
4900 Key Tower
127 Public Square
Cleveland, OH 44114-1304
(216) 479-8350
johnlazzaretti@squirepb.com
jrego@beneschlaw.com

Scott Allen Keller
Lehotsky Keller
200 Massachusetts Ave. NW
Washington, DC 20001
scott@lehotskykeller.com

Counsel for Chamber of Commerce of
the United States of America

Counsel for Murray Energy Corporation
Margaret I. Olson, Assistant Attorney
General
Office of the Attorney General, State of
North Dakota
500 North 9th Street
Bismarck, ND 58501-4509
(701) 328-3640
maiolson@nd.gov

Thomas Allen Lorenzen
CROWELL & MORING LLP
1001 Pennsylvania Avenue, NW
Washington, DC 20004-2595
(202) 624-2789
tlorenzen crowell.com
Counsel for National Rural Electric
Cooperative Association

Counsel for State of North Dakota

ro

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

Mark W. DeLaquil
BAKER & HOSTETLER LLP
Washington Square
1050 Connecticut Avenue, NW Suite 1100
Washington, DC 20036-5304
(202) 861-1500
mdelaquil@bakerlaw.com

Emily Church Schilling
HOLLAND & HART, LLP
901 K Street, NW, Suite 850
Washington, DC 20001
(202) 654-6922
ecschilling@hollandhart.com
Counsel for Basin Electric Power
Cooperative

Counsel for Westmoreland Mining
Holdings LLC

Angela Jean Levin
TROUTMAN PEPPER HAMILTON
SANDERS LLP
Three Embarcadero Center, Suite 800
San Francisco, CA 94111
(415) 477-5700
angela.levin@troutmansanders.com

Steven Travis Mayo
OFFICE OF THE ATTORNEY
GENERAL
700 Capitol Avenue, Suite 106
Frankfort, KY 40601
(502) 564-2611
travis.mayo@ky.gov

Counsel for Georgia Power Company
Counsel for State of Kentucky, by and
through Governor Matthew G. Bevin
William Daniel Booth
MICHAEL BEST & FRIEDRICH, LLP
1000 Maine Avenue, SW, Suite 400
Washington, DC 20024
(202) 747-9658
wdbooth@michaelbest.com
Counsel for Mississippi Public Service
Commission

Michael A. Zody
Jacob Santini
PARSONS BEHLE & LATIMER
201 South Main Street
Suite 1800
Salt Lake City, UT 84111
(801) 532-1234
mzody@parsonsbehle.com
jsantini@parsonsbehle.com
Counsel for Nevada Gold Mines LLC and
Nevada Gold Energy LLC

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.corn

Yaakov M. Roth
Stephen J. Petrany
JONES DAY,
51 Louisiana Ave., NW
Washington, D.C. 20001
(202) 879-3939
yroth@jonesday.com

C. Grady Moore, III
BALCH & BINGHAM LLP
1901 6th Avenue North, Suite 1500
Birmingham, AL 35201
(205) 251-8100
gmoore@balch.com
Counsel for Powersouth Energy
Cooperative

Counsel for North American Coal
Corporation

James P. Duffy
Ann Brewster Weeks
CLEAN AIR TASK FORCE
114 State Street, 6th Floor
Boston, MA 02109
(617) 359-4077
jduffy@catfus
aweeks@catfus

Elizabeth Jones
CENTER FOR BIOLOGICAL
DIVERSITY
660 S. Figueroa Street, Suite 1000
Los Angeles, CA 90017
(213) 785-5400
Ijones@biologicaldiversity.org
Counsel for Center for Biological Diversity

Counsel for American Lung Association,
American Public Health Association,
Appalachian Mountain Club, Clean Air
Council, Clean Wisconsin, Conservation
Law Foundation, and Minnesota Center for
Environmental Advocacy
Kristin Merritt Bronson
CITY AND COUNTY OF DENVER
1437 Bannock Street, Suite 353
Denver, CO 80202
(720) 865-8600
Icristin.bronson@denvergov.org

Brittany E. Wright
CHESAPEAKE BAY FOUNDATION
6 Herndon Avenue
Annapolis, MD 21403
(443) 482-2077
bwright@cblorg
Counsel for Chesapeake Bay Foundation,
Inc.

Counsel for City and County of Denver
Colorado

•

COUNSEt PRESS
(800)274-3321 • (800) 359-6859
www.counselpress.com

Debra S. Kalish
Tom Carr
CITY ATTORNEY'S OFFICE
1777 Broadway, 2nd Floor
Boulder, CO 80302
(303) 441-3092
kalishd@bouldercolorado.gov
carrt@bouldercolorado.gov

Benna Ruth Solomon
CORPORATION COUNSEL OF THE
CITY OF CHICAGO, APPEALS
DIVISION
30 North LaSalle Street, Suite 800
Chicago, IL 60602
(312) 744-7764
benna.solomon@cityofchicago.org

Counsel for City of Boulder

Counsel for City of Chicago

Michael James Bostrom
LOS ANGELES CITY ATTORNEY'S
OFFICE
AFFIRMATIVE LITIGATION
DIVISION
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012
(213) 978-1882
michael.bostrom@lacity.org

Christopher Gene King
NEW YORK CITY LAW
DEPARTMENT
100 Church Street
New York, NY 10007
(212) 788-1235
cking@law.nyc.gov

Counsel for City of Los Angeles

Thomas Frank Pepe
PEPE & NEMIRE, LLC
1450 Madruga Avenue, Suite 202
Coral Gables, FL 33146
(305) 667-2564
thomaspepe@pepenemire.com

Scott Schwarz
CITY OF PHILADELPHIA LAW
DEPARTMENT
One Parkway Building
1515 Arch Street
Philadelphia, PA 19102-1595
(215) 683-5170
scott.schwarz@phila.gov
Counsel for City of Philadelphia

Counsel for City of New York

Counsel for City of South Miami

Aimee Diane Thomson
OFFICE OF THE ATTORNEY
GENERAL
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(267) 940-6696
athomson attorneygeneral.gov
Counsel for Commonwealth of
Pennsylvania

•

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

Christophe Gagnon Courchesne
Paul Kugelman, Jr.
David S. Frankel
OFFICE OF THE ATTORNEY
MASSACHUSETTS OFFICE OF THE GENERAL
ATTORNEY GENERAL
202 North 9th Street
One Ashburton Place
Richmond, VA 23219
Boston, MA 02108
(804) 786-3811
(617) 963-2423
pkugelman@oag.state.va.us
christophe.courchesne@state.ma.us
david.frankel@mass.gov
Counsel for Commonwealth of Virginia
Counsel for Commonwealth of
Massachusetts

Sean H. Donahue
Karl A. Racine
DONAHUE, GOLDBERG & WEAVER, Loren L. AliKhan
LLP
OFFICE OF THE ATTORNEY
1008 Pennsylvania Avenue, SE
GENERAL
Washington, DC 20003
400 6th Street, NW, Suite 8100
(202) 277-7085
Washington, DC 20001
sean@donahuegoldberg.com
(202) 727-3400
Loren.AliKhan@dc.gov
Counsel for Environmental Defense Fund
Counsel for District of Columbia
Howard Learner
ENVIRONMENTAL LAW & POLICY
CENTER
35 E. Wacker Drive, Suite 1600
Chicago, IL 60601
(312) 673-6500
hlearner@elpc.org

Melissa Joy Lynch
David D. Doniger
NATURAL RESOURCES DEFENSE
COUNCIL
1152 15th Street, NW, Suite 300
Washington, DC 20005
(202) 717-8296
Ilynch@nrdc.org
ddoniger@nrdc.org

Counsel for Environmental Law and Policy
Center

Counsel for Natural Resources Defense
Council

COUNSEL PRESS
(800)274-3321•(800)359-6859
www.counselpress.com

Timothy Eugene Sullivan
Robert William Byrne
OFFICE OF THE ATTORNEY GENERAL
1515 Clay Street,
PO Box 70550
Oakland, CA 94612-0550
(510) 622-4038
timothy.sullivan@doj.ca.gov
Robert.Byme@doj.ca.gov
Counsel for State of California

Scott Norman Koschwitz
Matthew Ivan Levine
OFFICE OF THE ATTORNEY GENERAL
165 Capitol Avenue
Hartford, CT 06106
(860) 808-5250
scottkoschwitz@ct.gov
matthew.levine@ct.gov

Joanne Marie Spalding
SIERRA CLUB
2101 Webster Street, Suite 1300
Oakland, CA 94612
(415) 977-5725
joanne.spalding@sierraclub.org
Counsel for Sierra Club
Eric Olson
OFFICE OF THE ATTORNEY GENERAL
1300 Broadway
Denver, CO 80203
(720) 508-6548
eric.olson@coag.gov
Counsel for State of Colorado
Valerie Melissa Edge
DELAWARE DEPARTMENT OF
JUSTICE
102 West Water Street
Dover, DE 19904
(302) 257-3219
valerie.edge@delaware.gov
Counsel for State of Delaware

Counsel for State of Connecticut

William F. Cooper
STATE OF HAWAII DEPARTMENT OF
THE ATTORNEY GENERAL
425 Queen Street
Honolulu, HI 96813
(808) 586-1282
Bill.F.Cooper@Hawaii.gov

Daniel Isaac Rottenberg
OFFICE OF THE ATTORNEY
GENERAL,
ENVIRONMENTAL BUREAU
69 West Washington Street, Suite 1800
Chicago, IL 60602
(312) 814-3816
drottenberg@atg.state.il.us

Counsel for State of Hawaii
Counsel for State of Illinois

COUNSEL PRESS
(800)274-3321 • (800)359-6859
www.counselpress.com

Laura Jensen
OFFICE OF THE ATTORNEY
GENERAL
6 State House Station
Augusta, ME 04333-0006
(207) 626-8868
laura.jensen@maine.gov

John B. Howard, Jr.
Joshua Segal
OFFICE OF THE ATTORNEY
GENERAL
200 St. Paul Place
Baltimore, MD 21202-2021
(410) 576-6970
jbhoward@oag.state.md.us
jsegal@oag.state.md.us

Counsel for State of Maine

Counsel for State of Maryland
Gillian E. Wener
MICHIGAN DEPARTMENT OF
ATTORNEY GENERAL
P.O. Box 30755
Lansing, MI 48909
(517) 335-7664
wenerg@michigan.gov

Peter Surdo
OFFICE OF THE ATTORNEY
GENERAL
Town Square Tower, 445 Minnesota Street
St. Paul, MN 55101-2127
(651) 757-1061
peter.surdo@ag.state.mn.us

Counsel for State of Michigan and the
People of the State of Michigan
Heidi Parry Stem
OFFICE OF THE ATTORNEY
GENERAL
555 East Washington Avenue
Suite 3100
Las Vegas, NV 89101
(702) 486-3594
hstem@ag.nv.gov

Counsel for State of Minnesota
Lisa Jo Morelli
OFFICE OF THE ATTORNEY
GENERAL
PO Box 112
Trenton, NJ 08625-0112
(609) 633-8713
lisa.morelli@dol.lps.state.nj.us
Counsel for State of New Jersey

Counsel for State of Nevada

•

COUNSEL PRESS
(800) 274-3321•(800) 359-6859
www.counselpress.com

Anne Minard
OFFICE OF THE ATTORNEY
GENERAL
Villagra Building
408 Galisteo Street
Santa Fe, NM 87504
(505) 490-4045
aminard@nmag.gov

Michael J. Myers
Brian Murray Lusignan
Steven Wu
OFFICE OF THE ATTORNEY
GENERAL
The Capitol
Albany, NY 12224-0341
(518) 776-2382
michael.myers@ag.ny.gov
Brian.Lusignan@ag.ny.gov
steven.wu@ag.ny.gov

Counsel for State of New Mexico

Counsel for State of New York
Asher Paris Spiller
OFFICE OF THE ATTORNEY
GENERAL
PO Box 629
Raleigh, NC 27602
(919) 716-6050
aspiller@ncdoj.gov

Paul Andrew Garrahan
OREGON DEPARTMENT OF JUSTICE
1515 SW Fifth Avenue, Suite 410
Portland
, OR 97201
(971) 673-1943
paul.ganahan@doj.state.or.us

Counsel for State of North Carolina
Counsel for State of Oregon

Gregory Stage Schultz
OFFICE OF THE ATTORNEY
GENERAL
150 South Main Street
Providence, RI 02903
(401) 274-4400
gschultz@riagsi.gov

Nicholas Frank Persampieriz
OFFICE OF THE ATTORNEY
GENERAL
109 State Street
Montpelier, VT 05609-1001
(802) 828-6902
nick.persampieri@vermont.gov

Counsel for State of Rhode Island

Counsel for State of Vermont

•

COUNSEL PRESS
(800)274-3321• (800) 359-6859
www.counselpressxorn

Eugene Marc Trisko
LAW OFFICES OF EUGENE M.
Christopher Huriaux Reitz
TRISKO
Emily C. Nelson
OFFICE OF THE ATTORNEY GENERAL PO Box 330133
PO Box 40117
Atlantic Beach, FL 32233
(304) 258-1977
Olympia, WA 98504-0117
emtrisko7@gmail.com
(360) 586-4614
chrisseitz@atg.wa.gov
Counsel for International
emily.nelson@atg.wa.gov
Brotherhood of Boilermakers, Iron
Ship
Builders, Blacksmiths, Forgers
Counsel for State of Washington
and Helpers, AFL-CIO, International
Brotherhood of Electrical Workers,
AFL-CIO, and United Mine Workers
of America, AFL-CIO
Gabe Johnson-Karp
WISCONSIN DEPARTMENT OF
Theodore Hadzi-Antich
JUSTICE
TEXAS PUBLIC POLICY
17 West Main Street
FOUNDATION
PO Box 7857
901 Congress Avenue
Madison, WI 53707-7857
Austin,
TX 78701
(608) 267-8904
(512) 472-2700
johnsonkarpg@doj.state.wi.us
tha@texaspolicy.com
Counsel for State of Wisconsin
Counsel for Robinson Enterprises,
Inc., Nuckles Oil Company, Inc.,
doing business as Merit Oil Company,
David Michael Williamson
Construction Industry Air Quality
WILLIAMSON LAW & POLICY
Coalition, Liberty Packing Company,
1850 M Street NW, Suite 840
LLC, Dalton Trucking, Inc., Norman
Washington, DC 20036
R. Brown, Joanne Brown, Competitive
(202) 256-6155
Enterprise Institute, Texas Public
maxwilliamson@williamsonlawpolicy.com
Policy Foundation,
Counsel for Biogenic CO2 Coalition
Jeffery Scott Dennis
ADVANCED ENERGY ECONOMY
1000 Vermont Avenue, NW Suite 300
Washington, DC 20005
(202) 380-1950
jdennis@aee.net

Eugene Grace
AMERICAN CLEAN POWER
ASSOCIATION
1501 M Street, NW
Washington, DC 20005
(202) 383-2500
ggrace@awea.org

Counsel for Advanced Energy Economy
Counsel for American Clean Power
Association

•

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859
www.counselpressxorn

Richard Umoff
SOLAR ENERGY INDUSTRIES ASSOCIATION
600 14th Street, NW
Suite 400
Washington, DC 20005
202-556-2877
rumoff@seia.org
Counsel for Solar Energy Industries Association

Kevin James Poloncarz
COVINGTON & BURLING LLP
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, CA 94105
415-591-6000
kpolocarz@cov.com
Counsel for Consolidated Edison, Inc.,
Exelon Corporation, national Grid
USA, New York Power Authority,
Power Companies Climate Coalition,
Public Service Enterprise Group
Incorporated, and Sacramento
Municipal Utility District

by depositing three copies of same, addressed to each individual respectively, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by the United States Postal Service, via Express Mail. An electronic version was also
served by email to each individual.
That on the same date as above, I sent to this Court forty bound copies and one
unbound copy of the within Brief of Respondent National Mining. Association in Support
of the Petition through the United States Postal Service by Express Mail, postage prepaid.
In addition, the brief has been submitted electronically through the Court's
electronic filing system. All parties required to be served have been served.

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpresstorn

I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 28th day of May, 2021.

Marianna Iannotta

Sworn to and subscribed before me this 28th day of May, 2021.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2025

# 304838

•

COUNSEL PRESS
(800) 274-3321 • (800) 359-6859
www.counselpress.com

